20-982

IN THE SUPREME COURT OF THE UNITED STATES
SHARON LYNN
BROWN,

Petitioner,

v.
POLK COUNTY,
WISCONSIN, ET AL.

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Ruth Brown, hereby certify
I am a member of the bar of this Court, and that according to the word-count tool in
Microsoft Word, the Brief of National Association of Criminal Defense Lawyers and
Restore the Fourth as Amici Curiae in Support of Petitioner consists of 3,472 words,
including footnotes and excluding the sections enumerated by Rule 33.1(d). The
brief therefore complies with Rule 33.1(g).
Dated: February 24, 2021
/s/ Ruth Brown
Ruth Brown
Counsel of Record for
Amici Curiae

